LM

IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL WARD,
USSC: 20-5671

Petitioner,
v.

STATE OF MICHIGAN;
MICHIGAN SUPREME COURT;
MSC DEPUTY CLERK, INGER MEYER;
MICH. ATTY. GRIEV. COMM N, et al., 1/
—
Respondent(s).

PETITION FOR REHEARING
'Ally Pro-se State Prisoner/Petitioner]
NOW COMES Petitioner, MICHAEL WARD, a prisoner of the State of
Michigan, confined; proceeding 2La-se (unless this Court appoints
legal counsel to represent his interests), and pursuant to USSC Rule
44.2, moves the Court by majority to rehear his claim initially
bought on by way of Petition for a Writ of Certiorari, that was
DENIED upon issuance of a letter dated 11/2/20, and signed by USSC
Clerk Scott S. Harris. Thereafter rehearing granted, Petitioner Ward
moves the Court majority to vacate and set aside its 11/2/20 denial
of certiorari; to reinstate the case to the Court's active calendar;
appoint counsel to represent this indigent prisoner Petitioner; order
Respondent's to respond; and/or summarily declare Michigan's statute,
MCL 600. 2963(8) unconstitutional on its face, and/or as applied to
this indigent state prisoner unable to pay fee's said statute
requires in order to access any of Michigan's state court's. Burns v
Ohio, 360 U.S. 252 (1959).
1/ Petitioner Ward believes the assigned

CASE CAPTION, as assigned by case management in this USSC case
to be in error (I.e., Michael Ward v Mich. Atty Orley. Commh.). See discussion at pp. 2-3, 4 1(a),
infra.

-1 -

CY

The Michigan Supreme Court, and persistent pattern of all
levels of all court's in the State of Michigan, as it concerns MCL
600.2963(8), have decided en important question of federal law that
has not been, but should be, settled by this Court; and the Mich.
Supreme Court, and all court's at all levels in the State of
Michigan have decided an important federal question in a way that
conflicts with relevant decisions of this Court.
Petitioner Ward restates and incorporates the whole of his
Petition for a Writ of Certiorari that was FILED 7/17/20, and placed
on the docket 9/11/20, as USSC No. 20-5671.
1. CIRCUMSTANCES OF A SUBSTANTIAL OR CONTROLLING EFFECT:
a) Over Petitioner's written objection, the USSC case
management captioned this case as "Michael Ward v

Michigan Attorney

Grievance Commission." This matter is before this Court on Petition
for a Writ of Certiorari from the final decision of the Michigan
Supreme Court (MSC), it's Deputy Clerk EJ having invoked the
challenged state statute, MCL 600.2963(8), summarily refusing
Petitioner Ward access to the MSC, on the sole basis that: 1) he is
a prisoner; 2) he had demonstrated his financial inability to pay
"outstanding" fee's owed the MSC. The case caption in the MSC was
Michael Ward v Mich. Atty Griev. Comm'n, et al., however, due to the
MSC Clerk's summary refusal to file (due to Ward's inability to pay
outstanding fee's), the Clerk never filed; hence no MSC case# was
assigned, and ❑f course, there was no decision by the MSC on the
merits of the case against Mich. Atty. Griev. Comm'n. Petitioner
Ward's challenge is squarely against and focused upon the
CONSTITUTIONAL VALIDTY OF MCL 600.2963(8) on its face, and/or as
2/ A state court CLERK'S rejection letter is to be considered a FINAL ORDER for purpose of USSC
certiorari jurisdiction. Burns v Ohio, 360 U.S. 252, 256-57 (1959).

applied to Ward who has demonstrated his inability to pay fee's.
Therefore, the CASE CAPTION should be:

Michael Ward v Michigan

Supreme Court; or Michael Ward v State of Michigan, given his claim
challenges the "state!) statute; an unconstitutional statute invoked
by the Deputy Clerk of the MSC, as sole reason to deny Ward access.
b) The statute, MCL 600.2963(8) is unconstitutional because:
it is focused on, and applies ONLY to Michigan
prisoner's; constituting a denial of EQUAL PROTECTION and DUE
PROCESS of the laws, U.S. Const., Am's 1, 14 (see, Harper v Va.
State Bd. of Elections, 383 U.S. 663, 670 (1996)(holding strict
scrutiny applied where the right involved was "fundamental," even
though the class of persons affected was otherwise non-suspect).
See also, Boddie v Connecticut, 401 U.S. 371 (1971)(concluding that
due process did prohibit a state from denying access to it's courts,
solely because of inability to pays fee's).

In Michigan, a rich

prisoner can access the State's court's, whereas a

22a

prisoner

(such as your Petitioner Ward) cannot, only because he has n ❑ money
to pay fee's, current or outstanding.
MCL 600.2963(8) is UNCONSTITUTIONAL on its face, and/or
as applied to Ward who is financially unable to pay entry or
outstanding fee's; where the MSC Deputy Clerk's rejection .1/ of
Ward's attempted appeal based solely on the verbiage of MCL
600.2963(8), denied Ward "access." U.S. Const., Am's 1, 14.

Burns

v Ohio, 360 U.S. 252, 256-56'(1959); Boddie v Connecticut, 401 U.S.
371 (1971). See also, Bridges v Collette, 2006 U.S. Dist. LEXIS 58,
at *7 n.3 (WD Mich., 1/2/08)("... the court is nevertheless TROUBLED
that this prisoner, and other's like him, appear to be indigent and
3/ Again, a state court CLERK'S rejection letter is to be considered a FINAL ORDER for purpose of USSC
certiorari Jurisdiction. Burns v Ohio, 360 U.S. 252, 256-57 (1959).

appear to have lawsuits dismissed due to FEE BALANCES which they
cannot cure given their indigencv.

Should this pattern persist,

then eventually the U.S. SUPREME COURT WOULD BE OBLIGED TO ADDRESS
why defendant judge's are not providing EQUAL ACCESS to the courts
to indigent prisoner's.").
c) As said by Hon. Judge Richard Enslen in Bridges v
Collette, all state court's across the State of Michigan have and
continue to invoke MCL 600.2963(8) as a "PATTERN PERSISTENT," as a
means to keep poor prisoner's out of all levels of Michigan's court
system; whereas a "rich" prisoner has easy and ready access.
A) Your Petitioner, Michael Ward has experienced a
denial of access (due to his inability to pay fee's) not only in
the Mich. Supreme Court, but numerous other state circuit court's,
INCLUDING the Michigan Court of Appeals.

Should this USSC by

majority grant rehearing, reinstate the case, and order full
briefing of the parties, at that time Petitioner Ward will provide
this USSC with a volume of documentary evidence, establishing a
"persistent pattern" of Michigan's several and various state court
summary denials of access. Surely the constitutional challenge to
MCL 600.2963(8) is deserving of this high Court's attention ON THE
MERIT'S? The constitutional issue affects not only Ward, but 2ax
and all prisoner's in the State of Michigan, who have demonstrated
an inability to pay fees (current or outstanding), vet DENIED court
access persistently, only because he/they are "poor." Certainly,
the challenge to MCL 600.2963(8) presents a "COMPELLING reason,"
significant and substantial to jurisprudence, worthy of this USSC
attention; and relief in need.

-4-

2. All named/relevant Respondent parties were served a copy of
the original Petition for a Writ of Certiorari in this case #205671; and were served the USSC Clerk's "NOTICE" that "Pursuant to
Rule 15.3, the due date for a brief in opposition is Tuesday,
October 13, 2020." Respondent's failed/refused to file a brief or
any other pleading opposing Petitioner Ward's allegations. Rather,
on 9/1 6/20 B. Eric Restuccia (Office of Mich. Atty General) filed a
"WAIVER,"

of right to respond/oppose, in

behalf of State of

Michigan, Mich. Governor, Mich. Atty General, Mich. Supreme Court,
and MSC Deputy Clerk; and on 9/25/20, Deputy Administrator, Robert
E. Edick filed a "WAIVER" in behalf of Mich. Atty Griev. Comm'n.
Your Petitioner Ward submits to this USSC that Respondent's
"waiver" of right to respond, constitutes their "ADMISSION of the
ALLEGATIONS in the Petition for Writ of Certiorari. Criatini v
McKee, 526 F 3d 886, 894 n.1 (CA6 2008)("When a States return to a
habeas corpus petition fails to dispute the factual allegations
contained within the habeas petition, it essentially admits the
allegations,"); and see, Dickens v Jones, 203 F Supp 2d 354, 360
(ED Mich. 2002)(same)

WHEREFORE, your Petitioner, MICHAEL WARD respectfully prays the
USSC majority, in good faith, decide to grant his petition for
rehearing, given the "liberal construction," to which it deserves
(2222 v MacDougall, 454 U.S. 364, 365 (1982); Denton v Hernandez,
504 U.S. 25, 33 (1992)("Petitioner's allegations are to be accepted
as true, unless they are clearly irrational or wholly
incredible.")); and thereafter:
-5-

Vacate and set aside its 11/2/20 letter/order denying the
original Petition for a Writ of Certiorari;
Appoint legal counsel to represent Petitioner Ward's
interests in this case;
Summarily find and declare MCL 600.2963(8) is
unconstitutional on its face, and/or as applied to Petitioner Ward;
or,
Order that counsel's for Respondent's file their brief or
other pleading, responding to Petitioner Ward's claim/allegation;
That the constitutional challenge to MCL 600.2963(8) be put
before all Justice's of the USSC for their decision, on the merits;
That the Court fashion end award Petitioner Ward any other
or further relief or instruction, deemed appropriate and just in
the premises.
Respectfully submitted?
Michael Ward #126267
Macomb Corr Fac
34625 26 Mile Rd
Lenox Twp., MI 48048

Date: 11/9/20

Petitioner/Pro-per

-6-

IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL WARD,
USSC: 20-5671
Petitioner,
v.

MICH. ATTY. GRIEV. GOMM'N, et al., 1/
Respondent(s).

RULE 44.2 "CERTIFICATION"

Pro-se, state prisoner Petitioner, MICHAEL WARD, certifies that
his hereto attached Petition for Rehearing is restricted to the
grounds in Rule 44, paragraph 2 (i.e., "intervening circumstances
of a substantial or controlling effect or to other substantial
grounds not previously presented"), and that it is presented in
good faith and not for delay.

28 U.S.C. § 1746

Respectfully submitte

oeuil/
Mic ae
r
8
Macomb Corr Fac
34625 26 Mile Rd
Lenox Twp., MI 48048
Date: 11/9/20

Petitioner/Pro-per

1/ Petitioner Nerd believes the CASE CAPTION to be in error. See discussion at pp. 2-3, V 1(a), of
hereto attached Petition for Rehearing, supra.

